No.

In The
Supreme Court of the United States of America

MICHAEL RAMON OCHOA,
Petitioner, pro se,
V»

Dr. Arthur Levine, et al,
Respondents.

PROOF OF SERVICE
I, Michael Ramon Ochoa, do swear and declare that on or before November 07,
2019, as required by U. S. Supreme Court Rule 29,1 served the enclosed petition for
writ of certiorari and appendix on counsel for the parties to the above proceeding, and
on every other person required to be served, by depositing an envelope containing the
above documents in the United States mail properly addressed to each of them and
with first-class or priority postage pre-paid, at the following addresses:
Clerk of the Court Scott S. Harris
Supreme Court of the United States
1 First Street, N. E.
Washington, DC 20543-0001
(202) 479-3011
Deputy Prothonotary John Vaskov, Esq.
Pa. Supreme Court
801 City-County Building
414 Grant St.
Pittsburgh, PA 15219
Deputy Prothonotary Nicholas V. Corsetti, Esq.
Pa. Superior Court
Office of Prothonotary
310 Grant Street, Suite 600
Pittsburgh, PA 15219
1 of 5

RECEIVED
DEC -3 2019

Director Michael McGeever,
Allegheny County Department of Court Records
414 Grant Street, First Floor
Pittsburgh, PA 15219
Judge Robert J. Colville
Civil/Commerce and Complex Litigation Center
815 City-County Building
414 Grant Street
Pittsburgh, PA 15219
Judge John McVay Jr.
709 City-County Building
414 Grant Street
Pittsburgh, PA 15219
Judge Christine A. Ward
Civil/Commerce and Complex Litigation Center
819 City-County Building
414 Grant Street
Pittsburgh, PA 15219
Emeritus Judge R. Stanton Wettick, jr.
Civil/Commerce and Complex Litigation Center
820 City-County Building
414 Grant Street
Pittsburgh, PA 15219
Counsel for Defendants 2. 3. 4. 6. 7. 8. 9.14.15. 16. 17.18.19. 20. 22
Justin M. Gottwald, Pa.I.D. #92847
Katelin J. Montgomery Pa. I.D. #322698
Rebecca Good McBride Pa. I.D. #90623
Dickie, McCamey & Chilcote, P.C. Pa. firm #067
Two PPG Place, Suite 400
Pittsburgh, PA 15222
Counsel for Defendants 23. 24. 25
Scott G. Dunlop, Pa. I.D. #41638
Grant H. Hackley, Pa. I.D. #206141
Marshall Dennehey Warner Coleman & Goggin
501 Grant Street, Suite 700
Pittsburgh, PA 15219

2 of 5

